No. ___________
_____________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________
LELIS EZEQUIEL TREMINIO-TOBAR,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to ﬁle the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
[ X ] Petitioner has previously been granted leave to proceed in forma
pauperis in the following court(s):
Eastern District of Virginia and the United States Court of Appeals for the Fourth
Circuit.
[ ] Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
[
hereto.

] Petitioner’s afﬁdavit or declaration in support of this motion is attached

[ X ] Petitioner’s afﬁdavit or declaration is not attached because the court
below appointed counsel in the current proceeding, and:
[ X ] The appointment was made under the following provision of law:
18 U.S.C. § 3599(c) and the Criminal Justice Act
, and
[ X ] a copy of the order of appointment is appended.

2
/s/ Christopher B. Amolsch
Christopher B. Amolsch
Counsel of Record
CHRISTOPHER AMOLSCH
12005 Sunrise Valley Drive, Suite 200
Reston, Virginia 20191
(703) 969-2214
chrisamolsch@yahoo.com
Counsel for Petitioner
Frank Salvato
ATTORNEY AT LAW
1203 Duke Street
Alexandria, Virginia 22314
(703) 548-5000
frank@salvatolaw.com
Counsel for Petitioner

USCA4 Appeal: 18-4449

Doc: 2

Filed: 06/28/2018

Pg: 1 of 3

FILED: June 28, 2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4449
(1:16-cr-00209-LO-5)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
LELIS EZEQUIEL TREMINIO-TOBAR, a/k/a Scooby, a/k/a Decente
Defendant - Appellant
___________________
ORDER
___________________
The court appoints Christopher Bryan Amolsch and Frank Salvato cocounsel for the appellant pursuant to the provisions of 18 U.S.C. § 3599(c) and the
Criminal Justice Act effective 06/25/2018.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material to which
defense counsel did not have access in the district court.
Counsel is referred to the Capital Case Budgeting and Payment
Memorandum for information on budgeting requirements, appointment terms,

USCA4 Appeal: 18-4449

Doc: 2

Filed: 06/28/2018

Pg: 2 of 3

obtaining a fee exempt PACER account for electronic access to documents in CJA
cases, redacting private and sensitive data from transcripts and other documents,
and maintaining time and expense records. Non-capital hourly rates apply to
attorney services on appeal in this case because the death penalty is no longer an
issue as to your client.
If counsel believes the costs of representation will exceed the court's average
costs, as set forth in the memorandum, counsel must file a CJA budget proposal (ex
parte) within 21 days of appointment using the entry SEALED DOCUMENT. If
counsel does not believe the costs of representation will exceed the court's average
costs, counsel must file a statement to this effect within 21 days of appointment
using the entry SEALED DOCUMENT.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 30 and 31 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this

USCA4 Appeal: 18-4449

Doc: 2

Filed: 06/28/2018

Pg: 3 of 3

appointment from eVoucher, counsel may create CJA 30 and 31 vouchers for use in
maintaining time and expense records and paying for expert services. See CJA
eVoucher. CJA 24 forms for authorization and payment of transcript should be
submitted to the district court in accordance with the procedures established by each
district.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as
an ECF Filer.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

